January 3, 2020

Joel Nomkin
JNomkin@perkinscoie.com
D. +1.602.351.8185
F. +1.602.648.7185

BY ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Faust v. B.K., by her next friend Margaret Tinsley, No. 19-765

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30(4), respondent requests a 30-day extension, to and
including February 14, 2020, for the filing of a brief in opposition to the petition for certiorari in
this case. The petition was docketed on December 16, 2019. Unless an extension is granted, the
deadline for filing the brief in opposition will be January 15, 2020.
The requested extension is necessary because of holiday disruptions following the filing of
the petition, the press of deadlines in this case in the trial court, the complexity of the litigation,
and the extensiveness of the record. Additionally, respondent has been notified that at least one
amicus brief will be filed in support of the petition, and an extension is necessary to ensure that
respondent will be able to address that brief, and potentially others, in her opposition.
Counsel for petitioner, who requested and received two 30-day extensions to file the
petition for certiorari, has advised that petitioner consents to this request.

The Honorable Scott S. Harris
January 3, 2020
Page 2
Respectfully submitted,
/s/ Joel Nomkin
Joel Nomkin
Counsel for Respondent B.K., by her next friend Margaret Tinsley
cc:

P. Clement, counsel of record for petitioner
R. Ellman, counsel for petitioner
D. Quigley, counsel for petitioner

